TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Emergency Preparedness at Internal
                           Revenue Service Facilities
                             Needs to Be Improved



                                      September 17, 2008

                              Reference Number: 2008-10-148




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2008


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Emergency Preparedness at Internal Revenue
                             Service Facilities Needs to Be Improved (Audit # 200710043)

 This report presents the results of our review of emergency preparedness in the Internal Revenue
 Service (IRS). The overall objective of this review was to determine whether the IRS Incident
 Management Plan (IMP) and Occupant Emergency Plan (OEP) are adequate tools to address
 incidents and emergencies at IRS facilities. This audit was included in the Treasury Inspector
 General for Tax Administration Annual Audit Plan for Fiscal Year 2008. It is part of an overall
 strategy to evaluate the adequacy and viability of the suite of emergency plans that the IRS has in
 place.

 Impact on the Taxpayer
 An IMP and an OEP are designed to protect employees and visitors in IRS facilities; implement
 a clear command structure; and guide incident stabilization, assessment, and recovery efforts in
 the event of an emergency. However, these plans were not always complete or subject to regular
 exercises or tests to ensure readiness. As a result, we believe that in the event of an actual
 emergency such as a terrorist attack or natural disaster, these deficiencies could result in delays
 in safeguarding employees and visitors and in beginning efforts to recover critical business
 processes such as collecting tax revenue, processing tax refunds, and responding to taxpayer
 inquiries.
                         Emergency Preparedness at Internal Revenue Service
                                  Facilities Needs to Be Improved




Synopsis
Emergency situations are unpredictable and can happen very quickly. To ensure the safety of its
employees and quickly recover critical processes after an incident or emergency, the IRS relies
on four integrated plans.1 This review focused on the two plans that are normally activated first
in the response and recovery process. The IMP addresses the overall command structure that
will be implemented in the event of an emergency to coordinate all aspects of the response and
recovery. The OEP provides instructions needed to safely evacuate people from a facility or to
shelter them in place, which is the first priority. Overall, although the IRS has plans in place for
these two critical processes, we believe that the IRS’ emergency preparedness in these two areas
is insufficient to ensure a quick response and reaction to emergency situations affecting people,
buildings, and services.
Specifically, our review of the IMPs for 39 randomly selected facilities with IRS employees
identified that the plans did not always include the information necessary for a timely and
effective response. For example, the location of the primary Emergency Operations Center
and/or the backup Emergency Operations Center was not identified for 28 (72 percent) of the
39 facilities sampled. In addition, an alternate to the Incident Commander was not identified for
16 (41 percent) of the 39 facilities, and a backup for 1 or more other key incident management
staff was not identified in 32 (82 percent) of the 39 facilities. Finally, a general description of
the IRS business functions located at the site and current contact information for the applicable
functional Business Resumption Coordinators were not included in the IMPs of 35 (90 percent)
of the 39 facilities sampled. This lack of key information could result in confusion, duplication
of effort, and a breakdown in communication and coordination of efforts if IRS staff relied on
these plans in the event of an emergency.
Also, IMP exercises were not routinely performed at large IRS facilities.2 Specifically, an IMP
exercise was not performed during either Fiscal Year 2006 or 2007 at 3 (50 percent) of the
6 IRS facilities with 250 or more employees included in our sample. The three facilities at which
no exercise was performed included two field offices and a Computing Center.3 We also found
that where exercises were performed, detailed documentation regarding the scope, deficiencies
identified, and actions taken to address those deficiencies was not maintained in two of the three
sites.
Finally, although the IRS had prepared an OEP for each of the 15 sampled facilities in which it
was the primary tenant, testing of these plans was not routinely performed. Specifically,
occupant evacuation testing was not performed in Calendar Year 2007 in 5 (33 percent) of the

1
  OEP, IMP, Business Resumption Plan, and Disaster Recovery Plan.
2
  For the purpose of this review, we defined large facilities as those with 250 or more employees.
3
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                          2
                      Emergency Preparedness at Internal Revenue Service
                               Facilities Needs to Be Improved



15 buildings. For buildings where evacuation testing was performed, information regarding key
test results (e.g., whether employees were evacuated in a timely manner, disabled employees
were properly evacuated, employees properly reported to assigned assembly areas, and
alarms functioned properly) was generally not recorded. In the event of an emergency, properly
tested plans can reduce the threat to the safety of IRS employees.

Recommendations
We recommended that the Chief, Agency-Wide Shared Services, 1) revise the IMP template and
associated procedures to better emphasize requirements and require that all IMPs be periodically
reviewed to ensure that they are complete and accurate, 2) develop procedures requiring that all
significant IRS sites perform IMP exercises on a routine basis and document the results, and
3) continue efforts to implement a checklist to record the key results of OEP evacuation testing
and to develop a methodology for tracking the completion of this testing.

Response
The Chief, Agency-Wide Shared Services, agreed with all of our recommendations and provided
planned actions to address them. These actions include 1) revising the IMP template and
procedures, 2) developing criteria for a multi-year IMP testing, training, and exercise strategy,
and 3) continuing to improve the process for monitoring evacuation tests. Management’s
complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-3837.




                                                                                                 3
                              Emergency Preparedness at Internal Revenue Service
                                       Facilities Needs to Be Improved




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Incident Management Plans Did Not Always Include Information
          Sufficient to Address Potential Emergencies Effectively and
          in a Timely Manner.......................................................................................Page 4
                    Recommendations 1 and 2: ......................................................... Page 7

          Occupant Emergency Plans Were Not Routinely Tested .............................Page 7
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
      Emergency Preparedness at Internal Revenue Service
               Facilities Needs to Be Improved




                 Abbreviations

IMP        Incident Management Plan
IRS        Internal Revenue Service
OEP        Occupant Emergency Plan
                         Emergency Preparedness at Internal Revenue Service
                                  Facilities Needs to Be Improved




                                           Background

To address security threats and significant emergencies,
including manmade and natural catastrophes, Federal               Federal Government agencies
                                                                  are required to develop plans
Government agencies are required to develop plans that               that will enable them to
will enable them to continue their essential functions               continue their essential
across a broad spectrum of emergencies. The types,                  functions across a broad
magnitude, and locations of emergencies are                         spectrum   of emergencies.
unpredictable, and these situations can happen very
quickly. To be ready for such urgent situations, Federal
Government agencies are expected to have effective strategies, people, and mission critical
priorities already identified and appropriate plans in place that are readily available and can be
used on a moment’s notice.
Homeland Security Presidential Directive-201 requires Federal Government agencies to develop
business continuity plans to enable the recovery of critical Government functions after a disaster
or emergency event. To comply with the Directive, the Internal Revenue Service (IRS) must
develop and continuously update its continuity plans to enable the efficient recovery of its
critical processes, such as collecting taxes, processing tax returns and refunds, and responding to
taxpayer inquiries. This goal is complicated by the wide range of incidents that could disrupt
IRS operations such as acts of nature, technological failures, or terrorist attacks like chemical,
biological, nuclear, or radiological events or accidents.
Because the IRS could redirect work from 1 of its 10 campuses2 to another campus if needed, the
loss of a campus would not cause the IRS to completely lose a critical process nationwide.
However, the inability to efficiently recover a campus or large site would impose a strain on both
the IRS and potentially millions of taxpayers. In Fiscal Year 2007, the IRS processed more than
235 million tax returns and collected almost $2.7 trillion. The IRS also issued about 117 million
refunds totaling $295 billion. Inefficient recovery at a smaller IRS site, while not having as
severe an impact, could still adversely affect ongoing compliance efforts. At the time of our
review in November 2007, the IRS had employees in 667 different facilities across the United
States.




1
  Homeland Security Presidential Directive/HSPD-20, dated May 4, 2007, is also known as National Security
Presidential Directive/NSPD-51.
2
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 1
                       Emergency Preparedness at Internal Revenue Service
                                Facilities Needs to Be Improved



To ensure the safety of its employees and quickly recover critical processes after an incident or
emergency, the IRS relies on four integrated plans. The IRS would execute one or more of the
following plans depending on the severity of the incident or emergency:
   •   Occupant Emergency Plan (OEP) – This plan protects employees and visitors in IRS
       facilities, who are the first priority in any emergency situation. It provides instructions
       needed to safely evacuate people from a facility or to shelter them in place.
   •   Incident Management Plan (IMP) – This plan addresses the overall command structure
       (team) that will be implemented in the event of an emergency. The focus of this
       command team is assessment, evaluation, coordination, and strategy development as
       events occur. This plan is the umbrella under which all the other plans operate.
   •   Business Resumption Plan – After the people in the building are taken care of, this plan is
       used to recover and restore disrupted business processes in affected facilities. The plan
       identifies business processes, resumption strategies, people, vital records, information
       technology systems, and other supporting assets.
   •   Disaster Recovery Plan – This plan is used to recover and restore disrupted information
       technology systems and data. It identifies systems, procedures for recovering them, and
       the process for restoring operations at an alternate site.
The relationship among the four plans is represented by the following graphic:




       Source: IRS Intranet. BRP = Business Resumption Plan; DRP = Disaster Recovery Plan;
       BCP = Business Continuity Planning.

This graphic shows the primary purposes of the four plans, their relationship to one another, and
the breadth of the IMP, which addresses the entire incident from the moment it occurs through
the eventual resumption of normal IRS processes and activities. We previously reported the




                                                                                              Page 2
                         Emergency Preparedness at Internal Revenue Service
                                  Facilities Needs to Be Improved



results of our review of the IRS Disaster Recovery Plans3 and are currently performing a separate
review of the IRS Business Resumption Plans.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of Agency-Wide Shared Services during the period November 2007 through May 2008. Site
visits were made to Austin, Texas; Atlanta, Georgia; Covington, Kentucky; Dallas, Texas;
Denver, Colorado; Fresno, California; Jacksonville, Florida; Kearneysville, West Virginia; and
Nashville, Tennessee. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 Disaster Recovery Issues Have Not Been Effectively Resolved, but Progress Is Being Made (Reference
Number 2008-20-061, dated February 29, 2008).
                                                                                                      Page 3
                       Emergency Preparedness at Internal Revenue Service
                                Facilities Needs to Be Improved




                                 Results of Review

The IRS has significant experience in recovering from disasters and emergency incidents. For
example, on June 25, 2006, the IRS National Headquarters building flooded during record
rainfall and sustained extensive damage to its infrastructure. A review by the Government
Accountability Office indicated that, while the IRS emergency operations plans helped guide its
response to the flood, in more severe emergency events, conditions could be less favorable to
recovery.
To ensure the safety of its employees and quickly recover critical processes after an incident or
emergency, the IRS relies on four integrated plans. Our review focused on the two plans that are
normally activated first in the response and recovery process. The IMP addresses the overall
command structure that will be implemented in the event of an emergency to coordinate all
aspects of the response and recovery. The OEP provides instructions needed to safely evacuate
people from a facility or to shelter them in place, which is the first priority.
Overall, although the IRS has plans in place for these two critical processes, we believe that the
IRS’ emergency preparedness in these two areas is insufficient to ensure a quick response and
reaction to emergency situations affecting people, buildings, and services. As a result, we
believe that in the event of an actual emergency such as a terrorist attack or natural disaster, these
deficiencies could result in delays in safeguarding employees and visitors and in beginning
efforts to recover critical business processes such as collecting tax revenue, processing tax
refunds, and responding to taxpayer inquiries.
Our review of these plans identified two areas in which the IRS’ emergency preparedness efforts
need to be enhanced.
   •   IMPs did not always include information sufficient to allow the IRS to address potential
       emergencies at its facilities effectively and in a timely manner, and the plans were not
       subject to regular exercises to ensure readiness.
   •   OEPs were not routinely tested.

Incident Management Plans Did Not Always Include Information
Sufficient to Address Potential Emergencies Effectively and in a
Timely Manner
The purpose of an IMP is to designate, in advance, the specific personnel and command structure
that will be activated in the event of an incident such as a hurricane, flood, or terrorist act
affecting a facility with IRS employees. The IMP accomplishes this by establishing a structure
to ensure that requests for services and support are controlled, coordinated, and addressed in
                                                                                              Page 4
                         Emergency Preparedness at Internal Revenue Service
                                  Facilities Needs to Be Improved



priority order. A critical component of this process is the establishment of an Emergency
Operations Center, which is usually an offsite location where the incident management team will
meet to begin addressing the emergency. The incident management team is typically activated
following the evacuation of employees and taxpayers from the facility. The focus of this team is
assessment, evaluation, coordination, and strategy development.
To assist with preparation of the IMPs, the office of Agency-Wide Shared Services Physical
Security and Emergency Preparedness function provided general guidance and a standard
template for use as a starting point. Development of the individual plans for each IRS facility is
the responsibility of the Directors at the Computing Centers4 and campuses and the Senior
Commissioner’s Representatives5 for the field offices.
Our review of the IMPs for 39 randomly selected facilities with IRS employees identified that
the plans did not always include the information necessary for the IRS to respond to emergencies
effectively and in a timely manner. Specifically:
    •   The location of the primary Emergency Operations Center and/or a backup Emergency
        Operations Center was not identified for 28 (72 percent) of the 39 facilities.
    •   An alternate to the Incident Commander,6 in the event that the Commander is unavailable
        or cannot be quickly reached, was not identified for 16 (41 percent) of the 39 facilities.
        In addition, a backup for 1 or more other key incident management staff was not
        identified in 32 (82 percent) of the 39 facilities.
    •   An Initial Incident Commander, who would manage the response to an emergency until
        the Incident Commander could take over, was not identified in 12 (34 percent) of the
        35 facilities we sampled where the Incident Commander was not physically located in the
        building. For example, at 1 site we reviewed, the Incident Commander was located more
        than 200 miles from the site.
    •   A general description of the nature of the IRS business functions located at the site and
        complete and current contact information for the applicable functional Business
        Resumption Coordinators were not included in the IMPs of 35 (90 percent) of the
        39 facilities. Business resumption is the process of returning IRS functions located in the
        facility to operational status.




4
  Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
5
  The Senior Commissioner’s Representative is the designated representative of the IRS Commissioner authorized to
act on the behalf of the Commissioner in cross-functional and administrative areas.
6
  In general, the area Senior Commissioner’s Representative is the Incident Commander for the IRS field offices.
The IRS has 15 Senior Commissioner’s Representatives located throughout the country.
                                                                                                         Page 5
                             Emergency Preparedness at Internal Revenue Service
                                      Facilities Needs to Be Improved



This lack of key information could result in confusion, duplication of effort, and a breakdown in
communication and coordination of efforts if IRS staff relied on these plans in the event of an
emergency.
The Incident Commanders and their staffs we interviewed at nine judgmentally selected IRS
facilities generally understood their roles and responsibilities and indicated that IMPs were
useful tools to have available. However, because no one can predict who will and will not be
available in the event of a real emergency, it is critical that backup staff be identified and familiar
with the position as well. Similarly, establishing a backup Emergency Operations Center in
advance could eliminate potential confusion during an emergency and prevent delays in the
initial response to an incident.
We also found that IMP exercises were not routinely performed at large facilities,7 which leaves
the IRS at risk of being unprepared in the event of an actual emergency. To ensure readiness for
potential emergencies, the IRS relies on two types of IMP exercises. Functional exercises are
conducted annually at each IRS campus and involve the IMP and Business Resumption Plan
staffs working through a pre-scripted scenario such as a hurricane or flood to determine if the
procedures are valid. Tabletop exercises are less formal exercises based on a general discussion
of how a particular incident would be handled and might involve just one plan such as the IMP.
To facilitate performance of these exercises, the Physical Security and Emergency Preparedness
function prepared a list of exercise scenarios.
However, in 3 (50 percent) of the 6 IRS facilities with 250 or more employees included in our
random sample, an IMP exercise was not performed during Fiscal Years 2006 and 2007. The
three facilities at which no exercise was performed included two field offices and a Computing
Center. We also found that where exercises were performed, detailed documentation regarding
the scope, deficiencies identified, and actions taken to address those deficiencies was not
maintained in two of the three sites. As a result, information accrued from these exercises is not
available to assist the IRS in its efforts to assess and improve its overall incident readiness.
Because these plans deal with people and critical IRS operations, deficiencies must be corrected.
If the deficiencies are not addressed, the IRS facility and its occupants could be jeopardized in
the event of a real emergency.
We attribute these conditions primarily to the lack of specific guidance regarding 1) the critical
information that needs to be included in the IMP for each facility, 2) the need to schedule routine
exercises involving IMPs at all large IRS facilities, and 3) the need to document the results of
IMP exercises. For example, although during our fieldwork the IRS did implement a
requirement that an exercise be performed at all IRS field offices with more than 100 employees
by September 2008, this requirement relates only to Fiscal Year 2008. In addition, the
requirement does not specify that the results of tests should be documented to facilitate analysis
of agency-wide trends and best practices and does not address exercises at Computing Centers.

7
    For the purpose of this review, we defined large facilities as those with 250 or more employees.
                                                                                                       Page 6
                      Emergency Preparedness at Internal Revenue Service
                               Facilities Needs to Be Improved



IMPs that are incomplete and/or not routinely tested could result in delays in the stabilization of
an incident, which could lead to delays in implementing the Business Resumption Plans and
getting the IRS back to full operation after an emergency such as a flood or hurricane. The first
72 hours of a disaster, as demonstrated by calamities such as Hurricane Katrina, are a critical
period in which the appropriate response can make a difference. Depending on the work done at
the building, delays can have a measurable effect on tax administration because the IRS could be
forced to divert resources from other areas to make up for the lost work at the building affected
by the emergency.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 1: Revise the IMP template and associated procedures to 1) better
emphasize the need to ensure that both primary and backup Emergency Operations Center
locations are specified, backups are specified for all key incident management staff, an initial
Incident Commander is identified where appropriate, a general description of the nature of IRS
business functions located at the site is listed, and complete and current contact information for
the applicable functional Business Resumption Coordinators is specified, and 2) require that all
IMPs be periodically reviewed to ensure that they are complete and accurate.
       Management’s Response: IRS management agreed with the recommendation.
       Management in the office of Agency-Wide Shared Services plans to revise the IMP
       template and procedures to incorporate the actions outlined in this recommendation.
Recommendation 2: Develop procedures requiring that 1) all significant IRS sites, including
Computing Centers, perform IMP exercises on a routine basis, and 2) the results of these
exercises, including any plan weaknesses identified, be documented to facilitate an ongoing,
agency-wide analysis of trends and best practices.
       Management’s Response: IRS management agreed with the recommendation.
       Management in the office of Agency-Wide Shared Services plans to develop criteria for a
       multi-year testing, training, and exercise strategy consistent with Federal Government
       continuity directives that will also address action item follow-ups and/or lessons learned.

Occupant Emergency Plans Were Not Routinely Tested
The purpose of an OEP is to protect employees and visitors at IRS facilities by providing the
instructions needed to safely evacuate people from the facility in the event of an emergency.
An OEP is a short-term emergency response program that establishes procedures for
safeguarding lives and property during emergencies at a specific facility and contains two key
components: 1) procedures for evacuation; and 2) formation of an Occupant Emergency


                                                                                             Page 7
                          Emergency Preparedness at Internal Revenue Service
                                   Facilities Needs to Be Improved



Organization. Occupant Emergency Organizations are comprised of employees of the various
Federal Government agencies who occupy a facility.
The Physical Security and Emergency Preparedness function provides oversight and guidance
for the development of OEPs for facilities with IRS employees. Where facilities are shared with
other Federal Government agencies, the other Federal agency might be responsible for preparing
the OEP, depending on which agency is the primary tenant. The Physical Security and
Emergency Preparedness function also has overall responsibility for performing exercises related
to the OEP, except when another Federal Government agency is the primary tenant and therefore
responsible for the OEP and the associated exercises. The most common type of exercise
involving the OEP is an evacuation test, commonly known as a fire drill. Evacuation tests must
be performed annually for all IRS facilities and the results documented.
The IRS had prepared an OEP for each of the 15 facilities we sampled in which it was the
primary tenant and therefore responsible for the plan’s preparation. The plans were current and
adequately identified the key personnel and alternates responsible for the facilities’ evacuation in
the event of an emergency. The plans also contained facility-specific emergency contact
information and a general description of the facility characteristics. An OEP had also been
prepared for the other 24 facilities we sampled.8
However, occupant evacuation testing was not performed in Calendar Year 2007 in
5 (33 percent) of the 15 buildings where the IRS was the primary Federal Government tenant.
For the buildings where evacuation testing was performed, information regarding key test results
(e.g., whether employees were evacuated in a timely manner, disabled employees were properly
evacuated, employees properly reported to assigned assembly areas, and alarms functioned
properly) was generally not recorded. In the event of an emergency, properly tested plans can
reduce the threat to the safety of IRS employees.
We attribute these conditions primarily to the lack of comprehensive guidance regarding the
need to adequately document the results of evacuation tests and the lack of a reliable
methodology for monitoring the timely completion of these tests. During our audit fieldwork,
the Physical Security and Emergency Preparedness function initiated new procedures to improve
controls over OEP exercises. It developed an emergency evacuation checklist that will provide
documentation of the effectiveness of evacuation tests and will address issues such as whether
employees quickly exited the building, alarms worked properly, evacuation team members knew
their roles, and employees reported to assigned assembly areas. This checklist will be used for
all tests conducted after August 1, 2008. The Physical Security and Emergency Preparedness
function is also improving the overall process for monitoring evacuation tests by better defining
roles and responsibilities at each level of involvement and by developing a methodology to track


8
  Because the IRS was not the primary tenant and not responsible for the preparation of these 24 OEPs, we did not
test them in detail.
                                                                                                           Page 8
                      Emergency Preparedness at Internal Revenue Service
                               Facilities Needs to Be Improved



completion of these tests. These new procedures are scheduled to take effect during the first
quarter of Fiscal Year 2009.

Recommendation
Recommendation 3: The Chief, Agency-Wide Shared Services, should continue efforts to
implement a checklist to record the key results of evacuation testing and to develop a
methodology for tracking the completion of OEP evacuation testing.
       Management’s Response: IRS management agreed with the recommendation.
       Management in the office of Agency-Wide Shared Services plans to continue improving
       the process for monitoring evacuation tests.




                                                                                           Page 9
                         Emergency Preparedness at Internal Revenue Service
                                  Facilities Needs to Be Improved



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IMP and OEP are adequate
tools to address incidents and emergencies at IRS facilities. This audit was a regularly scheduled
review and was included in the Treasury Inspector General for Tax Administration Annual Audit
Plan for Fiscal Year 2008. To accomplish our objective, we:
I.      Determined whether controls and procedures in the office of Agency-Wide Shared
        Services have ensured that IMPs have been properly developed and implemented.
        A. Contacted managers and obtained IMPs and documentation for any tests or drills
           for 39 IRS facilities (37 field offices, 1 campus1 and 1 Computing Center2). We
           randomly selected a statistically valid attribute sample of 39 facilities from the total
           population of 667 IRS facilities as of November 2007. Our sample was selected to
           achieve a confidence level of 80 percent, an expected rate of occurrence of
           10 percent, and a precision level of ±6 percent.
        B. Determined whether the IRS has implemented adequate policies and procedures to
           ensure that plans are periodically tested, results of the tests are documented, and
           corrective actions are implemented in a timely manner.
        C. Interviewed the Senior Commissioner’s Representatives3 and the incident
           management staff at nine locations (four campuses, one Computing Center, and four
           field offices), judgmentally selected from the population of 667 IRS facilities as of
           November 2007, and obtained their input regarding the usefulness of the IMP as a
           tool in dealing with incidents at IRS facilities and to verify whether the command
           staff knew their roles. We used judgmental sampling to focus the interviews on staff
           at campuses and large field offices.
II.     Determined whether controls and procedures in the office of Agency-Wide Shared
        Services have effectively ensured that OEPs have been properly prepared.




1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
3
  The Senior Commissioner’s Representative is the designated representative of the IRS Commissioner authorized to
act on the behalf of the Commissioner in cross-functional and administrative areas.
                                                                                                        Page 10
              Emergency Preparedness at Internal Revenue Service
                       Facilities Needs to Be Improved



A. Contacted IRS managers and ascertained whether 1) the 39 facilities selected in
   Step I.A. are covered by an OEP and 2) the plans are complete and current for the
   15 facilities in which the IRS is the primary tenant and therefore responsible for
   preparing the plan.
B. Determined whether OEPs have been routinely tested and reviewed for the
   15 facilities in which the IRS is the primary tenant.




                                                                                 Page 11
                    Emergency Preparedness at Internal Revenue Service
                             Facilities Needs to Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
David P. Robben, Senior Auditor
Angela Garner, Auditor




                                                                                    Page 12
                    Emergency Preparedness at Internal Revenue Service
                             Facilities Needs to Be Improved



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Chief Information Officer OS:CIO
Director, Employee Support Services, Agency-Wide Shared Services OS:A:ESS
Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
OS:A:PSEP
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W




                                                                                      Page 13
       Emergency Preparedness at Internal Revenue Service
                Facilities Needs to Be Improved



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 14
Emergency Preparedness at Internal Revenue Service
         Facilities Needs to Be Improved




                                                 Page 15
Emergency Preparedness at Internal Revenue Service
         Facilities Needs to Be Improved




                                                 Page 16
